Lo
I

C@OCKLE

E-Mail Address:
L ega | Briefs contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 20-58
ANITA SMITH,
Petitioner,
v.
VESTAVIA HILLS BOARD OF EDUCATION,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the REPLY TO
RESPONDENT’S BRIEF IN OPPOSITION TO PETITION FOR WRIT OF CERTIORARI in the
above entitled case complies-with the typeface requirement of Supreme Court Rule 33.1(b), being
prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this
brief contains 2625 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d),

as needed.

Subscribed and sworn to before me this 7th day of October, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

fhe mescae, | HOTARY-State of Nebraska zv Chi,
RENEE J. GOSS .

fhe mescae, | Exp. September 5, 2023

 

Notary Public Affiant 40212
